U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

January 5, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: David Lague v. United States, No. 20-6296
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 5,
2020. The government’s response is now due, after one extension, on January 13, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including February 12, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-6296
LAGUE, DAVID
USA

LEAH LINDO SPERO
LAW OFFICE OF LEAH LINDO SPERO
255 KANSAS STREET
STE. 340
SAN FRANCISCO, CA 94103

